BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Alaska
Native Village Corporation Association, Inc., et al.
Steven T. Mnuchin, in his official capacity as Secretary
of U.S. Department of Treasury v. Confederated Tribes
of the Chehalis Reservation, et al., was sent via Next
Day Service to the U.S. Supreme Court, and via e-mail
service to the following parties listed below, this 21st
day of October, 2020:
Riyaz A. Kanji
Kanji & Katzen, PLLC
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com
Eric Dahlstrom
Rothstein Donatelli LLP
1501 W. Fountainhead Parkway
Suite 360
Tempe, AZ 85282
edahlstrom@rothsteinlaw.com
G. Bledsoe Downes
Elk Valley Rancheria, California
2332 Howland Hill Road
Crescent City, CA 95531
(949) 500-4092
bdownes@elk-valley.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Alexander B. Ritchie
San Carlos Apache Tribe
PO Box 40
16 San Carlos Avenue
San Carlos, AZ 85550
(928) 4 7 5-3344
alex.ritchie@scat-nsn. gov
Lori Brunner
Quinault Office of the Attorney General
136 Cuitan Street
Taholah, WA 98587
(360) 276-8215
LBruner@quinault.org
Nicole E. Ducheneaux
Big Fire Law & Policy Group
1404 Fort Crook Road South
Bellevue, NE 68005
(531) 466-8725
nducheneaux@bigfirelaw.com
Jennifer Bear Eagle
Oglala Sioux Tribe
PO Box 1204
Pine Ridge, SD 57770
(402) 617-3553
JenniferBE@ostlegal.org

Natalie A. Landreth
Wesley James Furlong
Matthew Neil Newman
Native American Rights Fund
745 West 4th Avenue
Suite 502
Anchorage, AK 99501
(907) 276-0680
landreth@narf.org
wfurlong@narf.org
mnewman@narf.org
Jeffrey Rasmus sen
Frances Clare Bassett
Patterson Earnhart Real Bird & Wilson LLP
357 S. McCaslin Boulevard
Suite 200
Louisville, CO 80027
(303) 926-5292
jrasmussen@nativelawgroup.com
fbassett@nativelawgroup.com
Rollie Wilson
Patterson Earnhart Real Bird & Wilson LLP
601 Pennsylvania Avenue, NW
Suite 900
Washington, DC 20004
(202) 340-8232
rwilson@nativelawgroup.com
Counsel for Respondents

Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States

Paul D. Clement
Counsel of Record
Erin E. Murphy
Ragan N are sh
Matthew D. Rowen
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 21, 2020.

DonnaJ. Wo,
Becker Gallagher Lega: Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

!Jcj.;yk ;;}( , .;Joe}()

~ry~~b~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

